                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM

                                                                                   Page 1 of 1



On 15 August 2003, we received an allegation that the PI (the subject) on the NSF proposal  '
used ideas from another scientist's2 unpublished manuscript in the NSF proposal without proper
attribution.

We contacted the scientist to learn the specific details of the allegation. The scientist informed
us that he did not believe what the subject did was serious enough to pursue. He said that what
the subject did was, in his opinion, possibly unethical, but he could see how others might not
agree with this conclusion. We offered the scientist 2 weeks to reconsider his position,
encouraging him to contact us if he changed his mind. Over a month has passed and the scientist
has not contacted us. Without more specific information, we are unable to evaluate this matter.

Accordingly, we close this case and no further action will be taken.
